C@OCKLE

2311 Douglas Street L ega 1 Briefs E-Mail Address:
Omaha, Nebraska 68102-1214 Est. 1923 contact@cocktelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-941

BILLY DANIEL RAULERSON, IR.,
Petitioner,

Vv.
WARDEN,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 27th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE SOUTHERN CENTER FOR HUMAN RIGHTS
AND THE RODERICK & SOLANGE MACARTHUR JUSTICE CENTER AS AMICI CURIAE IN SUPPORT OF
PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
AMIR H. ALI MICHAEL ADMIRAND
THE RODERICK & SOLANGE Counsel of Record
MACARTHUR JUSTICE CENTER, PATRICK MULVANEY
777 6th Street NW PRINCETON HYNES
11th Floor SOUTHERN CENTER FOR
Washington, DC 20001 HUMAN RIGHTS
(202) 869-3434 60 Walton Street NW
amir.ali@macarthurjustice.org Atlanta, GA 30303

(404) 688-1202
madmirand@schr.org

Subscribed and sworn to before me this 27th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Hebraska & Chk
RENEE J. GOSS

Notary Public Affiant 39453

My Comm. Exp. September 8, 2025

 

 
Raulerson v. Warden, 8. Ct. No. 19-941
Service List

David W. DeBruin

Jenner & Block LLP

1099 New York Ave., NW
Suite 900

Washington, D.C. 20001
(202) 639-6015
ddebruin@jenner.com
Counsel for Petitioner

Sabrina Graham

Office of Attorney General
Georgia Department of Law
40 Capitol Square, SW
Atlanta, GA 30334

(404) 656-7659
sgraham@law.ga.gov
Counsel for Respondent
